               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Postal Vehicle Service – Nationwide
                 Analysis

                       Audit Report




                                              April 25, 2012

Report Number NL-AR-12-005
                                                                          April 25, 2012

                                                Postal Vehicle Service – Nationwide
                                                                           Analysis

                                                                          NL-AR-12-005



IMPACT ON:
U.S. Postal Service, Postal Vehicle          schedule and vehicle utilization reviews
Service (PVS) operations nationwide.         and make more timely PVS schedule
                                             changes. We also recommended
WHY THE OIG DID THE AUDIT:                   increasing the use of NTFT employees
The objectives of this audit were to         where fewer than 8 hours of work exists
summarize the results of our prior audit     when feasible and having management
work and to identify PVS scheduling and      encourage local officials to negotiate the
staffing issues and associated impacts       use of split days off with local union
that require nationwide attention.           officials. Finally, we recommended the
                                             Postal Service ensure that processing and
WHAT THE OIG FOUND:                          distribution center managers enforce the
We determined that Postal Service            use of seat belts, chock blocks, and load
Headquarters needs to strengthen             restraints by drivers; and that managers
nationwide processes, guidance, and          periodically monitor compliance.
monitoring of PVS fleet management
procedures for conducting required           WHAT MANAGEMENT SAID:
schedule and vehicle utilization reviews.    Management generally agreed with our
In addition, management can create more      recommendations but not our monetary
efficient PVS schedules by using non-        impact. Management stated they will
traditional full-time (NTFT) employees and   monitor compliance with vehicle utilization
changing work schedules to include split,    reviews; continue to pursue the use of
or non-consecutive, days off. This would     postal support employees (PSE) and
allow managers to more efficiently staff     NTFT employees to reduce overall
operations, match workhours with             workhours and control costs; and will work
workload, and reduce driver workhours.       with area staff to hire the maximum
By making these changes nationally, we       compliment of PSEs in PVS operations.
estimate the Postal Service could save       Finally, management plans to reissue
about $47.1 million annually. Finally, we    safety procedures.
determined that, at some facilities
previously audited, drivers were not         AUDITORS’ COMMENTS:
consistently following prescribed safety     Management’s comments are responsive
procedures when conducting PVS               to the last recommendation but not
operations.                                  responsive to the first three. While
                                             management’s actions will help,
WHAT THE OIG RECOMMENDED:                    management needs to take additional
We recommended the vice president,           actions as recommended to further
Network Operations, ensure that Postal       ensure PVS operations are efficient.
Service managers follow prescribed fleet
management procedures for conducting         Link to review the entire report
April 25, 2012

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Postal Vehicle Service – Nationwide Analysis
                           (Report Number NL-AR-12-005)

This report presents the results of our audit of Postal Vehicle Service Scheduling and
Staffing – Nationwide Analysis (Project Number 11XG026NL001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Cynthia F. Mallonee
    Pamela S. Grooman
    Area Vice Presidents
    Corporate Audit and Response Management
Postal Vehicle Service - Nationwide Analysis                                                                       NL-AR-12-005




                                                  TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Conducting Schedule and Vehicle Utilization Reviews.................................................... 1

Using Non-Traditional Full-Time Employees ................................................................... 2

Using Split Days Off for Employees ................................................................................ 3

Other Matters – Safety Concerns .................................................................................... 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impact ....................................................................................... 11

Appendix C: Sample Sites, Sample Sites, and Workhours ........................................... 12

Appendix D: Consecutive and Nonconsecutive Days Off Analysis................................ 15

Appendix E: Management’s Comments ........................................................................ 16
Postal Vehicle Service - Nationwide Analysis                                    NL-AR-12-005




Introduction

This report presents the results of our audit of Postal Vehicle Service (PVS) Scheduling
and Staffing – Nationwide Analysis (Project Number 11XG026NL001). The U.S. Postal
Service Office of Inspector General (OIG) initiated this audit based on the results of our
prior 11 audits focused on PVS operations at processing and distribution centers
(P&DCs), and three audits focused on PVS staffing and scheduling inefficiencies. The
objectives of this audit were to summarize the results of our prior work and to identify
PVS scheduling and staffing issues and associated impacts that require nationwide
attention. See Appendix A for additional information about this audit.

Conclusion

Postal Service Headquarters needs to strengthen nationwide processes, guidance, and
monitoring of fleet management procedures for conducting PVS schedule and vehicle
utilization reviews. This would ensure that management makes necessary changes to
PVS schedules more timely and uses the most efficient and effective transportation of
mail by reducing driver workhours and associated fuel use and damage claims.
Specifically, management did not always conduct annual schedule and vehicle
utilization reviews to evaluate and adjust PVS schedules for efficiency. In addition,
Postal Service officials could further increase efficiency nationwide by maximizing the
use of non-traditional full-time (NTFT) employees and altering schedules to include the
use of split days off where practical. This would allow managers to more efficiently staff
operations, match workhours with workload, and reduce driver workhours. By making
these changes nationally we estimate the Postal Service could save about $47.1 million
annually. We also found that drivers were not consistently following prescribed safety
procedures when conducting PVS operations.

Conducting Schedule and Vehicle Utilization Reviews

We determined that management needs to strengthen policies and procedures as well
as provide increased oversight for conducting PVS schedule and vehicle utilization
reviews. According to Postal Service Handbook PO-701, Fleet Management, Postal
Service officials are required to conduct PVS schedule and vehicle utilization surveys
(reviews) at least annually. Surveys are completed to determine, among other things:

   Trailer capacity, load utilization of each trip, and schedule efficiency.

   The method used to handle mail sacks, pouches, and containers.

   The running time between service points and whether there is excessive platform or
    office time in relation to the mail carried.




                                                 1
Postal Vehicle Service - Nationwide Analysis                                                              NL-AR-12-005




Our work in 14 previous PVS audits1 identified that PVS schedules frequently included:

   Unassigned time when drivers were not needed for a specific trip or related activity.
   Underutilized trips that management could have consolidated.
   Duplicate or redundant trips to facilities.

At the 18 sites visited during our previous audits, we assessed whether management
was conducting annual schedule and vehicle utilization reviews as required by Postal
Service policy. We determined that none of the 18 sites were in compliance with the
annual requirement. Overall, we previously identified 247,675 unnecessary workhours
and identified savings exceeding $106.2 million. We believe these reviews would have
created opportunities to generate more efficient schedules, thereby eliminating the
inefficiencies noted previously.

Using Non-Traditional Full-Time Employees

Where feasible, the Postal Service needs to staff some PVS operations with NTFT
employees to be more efficient. With the new collective bargaining agreement (CBA)
signed with the American Postal Workers Union (APWU) ratified on May 11, 2011,
Postal Service officials can create full-time schedules for PVS drivers that contain 30-48
workhours and use NTFT employees. Before the new CBA, traditional schedules had to
contain 40 hours to be classified as full-time. This resulted in inefficient driver schedules
with idle time because the workhours did not always match the workload. In two prior
district-level PVS audits we recommended the conversion of full-time positions to
part-time, with savings exceeding $25.6 million. We conducted these audits before
ratification of the current CBA. As part of the new CBA, management eliminated
part-time positions in the motor vehicle craft and replaced them with NTFT employees.

Based on the results of our prior work in the districts, we further assessed PVS
schedule efficiency nationwide by analyzing workflow and workhour data for a sample of
sites and projected our results over all PVS sites.2 In doing so, we identified an audit
universe of 66 P&DCs with 26 to 192 drivers3 and assessed whether or not
management could reduce workhours by using the new NTFT employees for schedules
with less than 8 hours of work to be performed based on workflow. We analyzed the
workhours in a sample of nine facilities and projected the results to the 66 P&DCs (see
Appendix C for a detailed list of sites). Overall, we concluded that the Postal Service,
with the use of NTFT employees working less than 40 hours a week where possible,
could reduce PVS workhours by an estimated 1,240,488 hours and save more than
$53 million over 2 years4 (an average of $26.8 million annually), without negatively
impacting service. See Appendix B for our detailed calculations.
1
  Since 2007, we have issued 11 reports focused on PVS operations at P&DCs and we issued three district level reports
focused on PVS staffing and scheduling.
2
  In facilities with fewer than 26 drivers, a different type of analysis would be needed other than the one employed in this
audit to substantiate savings. In the one with more than 192 drivers, we felt that, because of its size, it would be an
outlier and could not be used in a nationwide projection.
3
  We excluded the drivers from the Atlanta, GA; Connecticut Valley; and Western Pennsylvania districts because of our
previous scheduling and staffing audits in those districts.
4
  These savings are predicated on the Postal Service being able to change PVS schedules through attrition.

                                                             2
Postal Vehicle Service - Nationwide Analysis                                                           NL-AR-12-005




Using Split Days Off for Employees

The Postal Service needs more flexibility in staffing and scheduling PVS drivers
nationwide by allowing for the use of split days off to make the operations even more
efficient and reduce costs. However, we determined that the Postal Service, under the
existing CBA, must give successive days off in certain size facilities, which results in the
need for additional drivers to cover schedules. With consecutive days off, two additional
employees are needed to cover five full-time schedules. In contrast, with
nonconsecutive days off, one additional employee is needed to cover five full-time
schedules. See Appendix D for a chart illustrating how the use of split days off results in
fewer workhours.

Moreover, we found that work rule flexibility had been allowed under the previous
APWU agreement. Specifically, recognizing the need to change work rules governing
drivers due to insufficient work, the Postal Service and the APWU entered into a
Memorandum of Understanding (MOU) on January 15, 2009, in which both parties
agreed to relax some of the work rules regarding motor vehicle drivers.5 Selected
facilities were able to take advantage of these provisions to allow for split days off. This
MOU between the Postal Service and the APWU became null and void with the new
CBA, effective November 21, 2010. However, we further determined that this type of
work rule agreement can be continued under the new agreement, but those agreements
have to be pursued and negotiated or re-negotiated at the local level.

We analyzed the use of split days off in our prior district audits and identified
39 unnecessary positions and savings exceeding $23.8 million by not using consecutive
days off. We also analyzed the use of split days off nationwide and determined that the
Postal Service could save more than $40 million over 2 years by eliminating 536
employees not needed for PVS operations if local agreements are established under
the new CBA to allow for nonconsecutive days off. See Appendix B for our detailed
calculations.

Other Matters – Safety Concerns

During our observations at six facilities previously audited,6 we found that employees
were securing vehicle loads of rolling stock of mail and equipment with single – instead
of the required double – restraints at the ends of their loads. Improperly restrained mail
and equipment can lead to accidents, damaged property, undue liability, and
unwarranted costs for the Postal Service. In addition, at one facility we observed that
nearly one-third of its drivers were not wearing seat belts, which reduce the risk of
serious or fatal injury.


5
  This MOU allowed PVS drivers to work under modified work rules at a limited number of pilot facilities. The MOU, in
part, allowed drivers to have split days off; work 8 nonconsecutive hours within a 9-, 10-, 11-, or 12-hour day; and
allowed management to move employees into different positions within the installation without penalty, as long as they
did not perform work in the motor vehicle craft.
6
  We identified load restraint safety issues at the Northern Virginia, Minneapolis, Cardiss Collins, Southern Maryland,
Suburban Maryland, and Baltimore P&DCs.

                                                            3
Postal Vehicle Service - Nationwide Analysis                                                NL-AR-12-005



At three facilities we visited during our previous audits, we observed that trailers’ wheels
were not consistently chocked. Postal Service Standard Operating Procedures,
Receiving and Dispatching Vehicles (November 7, 2007), require PVS drivers to
approach loading docks by backing vehicles to the door or platform space, setting the
brake, shutting off the engine, and placing the chock blocks behind the wheels. The
chock blocks are intended to prevent accidental movement of the vehicle and, if they
are missing, the driver must notify the expeditor or platform personnel.

                Trailer parked at the Pittsburgh P&DC dock. Pictured is a chock block that, per
            Postal Service policy, is supposed to be placed behind the wheel to prevent movement.




                           Source: OIG


Recommendations

We recommend the vice president, Network Operations:

1. Instruct area Postal Service officials to follow prescribed fleet management
   procedures for conducting Postal Vehicle Service schedule and vehicle utilization
   reviews and make necessary changes to the schedules in a more timely fashion (or
   at least annually) to match the fluid operational changes.

2. Ensure Postal Service officials change schedules when feasible to reduce overall
   scheduled workhours and staffing by increasing the use of non-traditional full-time
   employees where fewer than 8 hours of work exists.

3. Encourage area Postal Service officials to negotiate the use of split days off with
   local union officials where possible to reduce operating costs through staff
   reductions.

4. Instruct processing and distribution center management to issue memorandums to
   drivers reinforcing the use of seat belts, chock blocks, and load restraints; and
   periodically monitor compliance.




                                                     4
Postal Vehicle Service - Nationwide Analysis                                                          NL-AR-12-005




Management’s Comments

Management generally agreed with our recommendations,7 but not our monetary
impact. Management stated they will continue to track and monitor compliance with fleet
management procedures on a quarterly basis to ensure PVS managers perform annual
vehicle utilization reviews in order to maintain effectiveness and efficiency. In addition,
they will continue to pursue and monitor the maximum use of postal support employees
(PSE) and NTFT employees to control costs and hours. Regarding the use of split days
off, management does not believe encouraging the negotiation of split days off for NTFT
employees is actionable at this time since it would first require management to seek
adoption of a MOU with the APWU at the national level. Instead, management will
coordinate with area PVS staff to hire PSEs who earn less and can be scheduled with
split days off without union involvement. Management will also reissue Vehicle
Receiving and Dispatching Standard Operating Procedures to field management for
adherence and follow up.

Regarding monetary impact, management did not agree with our estimates because the
APWU agreement does not currently allow for the use of split days off for NTFT
employees without further action at the national and local levels. In addition,
management stated they cannot agree with our projected savings associated with the
use of the NTFT position since the ability to optimize around the NTFT position is
conditional on vacancies, volunteer full-time regular employees, and conversion of
PSEs after their initial 1-year term as PSEs. See Appendix E for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 4.
However, the OIG does not consider management’s comments responsive to
recommendations 1 through 3 and the proposed corrective actions will not fully address
the issues identified in the report. We will continue working with management on
implementation of our recommendations during the close-out process, and if
unresolved, we will pusue them through the formal audit resolution process.

Regarding annual vehicle utilization reviews, management needs to aggressively
ensure compliance and follow-through in its quarterly tracking and monitoring given the
extent of non-compliance identified in our prior audits. Quarterly tracking and monitoring
has been the standard process in the past, and this approach has not significantly
changed PVS efficiency as identified in our prior audits.

Further, regarding the use of split days off, we agree that use of PSEs will provide some
flexibility necessary to reduce workhours. However, the intent of our recommendation
was to encourage the use of split days off for regular employees which is negotiable
under the APWU agreement for many facilities without a separate MOU allowing for it.

7
 Management did not explicitly state agreement with our findings in their response. However, they agreed in the exit
conference with the findings, and agreed in the response to implement the recommendations.

                                                           5
Postal Vehicle Service - Nationwide Analysis                                    NL-AR-12-005



Consecutive days off are costly and the Postal Service needs to aggressively pursue
the use of split days off where possible. We agree that if the Postal Service applied the
recommendation to NTFT employees, it would need to adopt a MOU for that class of
employee to allow for local negotiations for split days off. By doing so, the Postal
Service would have additional flexibility and opportunities to reduce costs.

Finally, regarding our monetary impact, we believe the estimates to be valid based on
the assumptions and methodology used in our calculations. We based the estimates on
staffing flexibilities that are already available or can be pursued (as has been done in
the past) – specifically the ability to use split days off through local negotiations and a
national MOU with the APWU. It should be noted that we lowered estimates from our
draft report by using the salary and benefit labor rate instead of the fully loaded rate in
our calculations to ensure an even more conservative estimate.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                               6
Postal Vehicle Service - Nationwide Analysis                                      NL-AR-12-005




                                    Appendix A: Additional Information

Background

The Postal Service’s transportation network includes nationwide transportation between
cities and major facilities, as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as P&DCs or network
distribution centers in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles annually. Because PVS operations are local, they
are managed at the facility level under the guidance of district, area, and headquarters
transportation officials.

                                PVS vehicle traveling from the Orlando P&DC
                                to an associate office, taken October 19, 2011.




                             Source: OIG




Drivers who work within the PVS craft (also known as the motor vehicle craft) are
represented by the APWU and the work rules governing PVS operations are covered
under the CBA. Before the CBA was ratified in 2011, drivers’ schedules were developed
based on an 8-hour assignment. Management had to pay drivers for 8 hours of work,
although the schedules may not have contained 8 hours of assignments. Managers
were allowed a complement of 10 percent of their work force that could be part-time,
regular employees.

With the new CBA ratified in 2011, management eliminated part-time, regular
employees in the motor vehicle craft and replaced them with NTFT employees.
Management can now develop schedules with fewer than 8 hours of work and staff
those schedules with NTFT employees. These employees are classified as full-time
employees; however, these employees may work fewer than the traditional 8 hours per
day, or 40 hours per week. The new CBA also requires management to schedule



                                                      7
Postal Vehicle Service - Nationwide Analysis                                                               NL-AR-12-005



employees with consecutive days off in most cases. However, management at the local
level can negotiate split days off, but only if the local union agrees to allow it.

Objectives, Scope, and Methodology

We initiated this audit based on the results of our 14 prior audits that identified
inefficiencies in the scheduling and staffing of PVS operations. In our prior PVS audit
work, we reviewed schedules for inefficiencies and eliminated complete schedules.
Although this helped make the operations more efficient, opportunities exist to make
the schedules more efficient by matching workhours with workload. In our prior audit
work, because individual facilities control PVS operations, we localized our audit
approach. The objectives of this audit were to summarize the results of our prior work
and to identify PVS scheduling and staffing issues and associated impacts that require
nationwide attention.

To accomplish our nationwide objectives, we reviewed prior work and identified
systemic issues requiring attention and performed additional analyses to determine
whether further opportunities existed to make operations more efficient. In doing so we
identified an audit universe of 66 P&DCs with 26 to 192 drivers.8 We excluded other
P&DC facilities because we would have had to analyze their operations individually.9
From the list of 66 P&DCs, we created a statistical sample and identified nine P&DCs10
to analyze. We conducted the analysis to determine whether management could
reduce workhours and labor costs. As part of our review of the Postal Service’s PVS
schedules, we analyzed driver assignments and determined whether drivers made
duplicate or unproductive trips. We extracted trip volume data from the Postal Service’s
Transportation Information Management Evaluation System and PVS schedule
information from the Vehicle Information Transportation Analysis and Logistics system.

Using Postal Service computer-generated data and other records, we analyzed
974 PVS driver schedules from our sample and evaluated individual trips and trip load
volume. We projected the results of our sample to determine the estimated number of
workhours that could be reduced nationwide and calculated projected cost savings.
See Appendix C for a full listing of the sample and universe sites and related
workhours.

We conducted visits to the Norfolk and Orlando P&DCs as well as 24 associate offices,
reviewed relevant Postal Service policies and procedures, interviewed managers and
employees, and observed and photographed operations. We evaluated the type of mail
carried and considered on-time service standards. We examined the cost of PVS
operations, including the cost of PVS personnel. We also reviewed the Postal Service’s
existing CBA with the APWU.
8
  We excluded drivers from the Atlanta, Connecticut Valley, and Western Pennsylvania districts because of our previous
PVS scheduling and staffing audits in those districts.
9
  In facilities with fewer than 26 drivers, a different type of analysis than the one employed in this audit would be needed
to substantiate savings. In the facility with more than 192 drivers, we felt that, because of its size, it would be an outlier
and could not be used in a nationwide projection.
10
   The Oakland P&DC was one of the original nine sites to review; however, at the time of our audit, its PVS schedules
were in the process of changing and could not be analyzed. We coordinated with our statistician and removed the facility
from the sample and the universe and added the Mid-Island P&DC to our sample.

                                                              8
Postal Vehicle Service - Nationwide Analysis                                          NL-AR-12-005




                     PVS cargo vans parked at the Orlando P&DC on October 18, 2011.




                             Source: OIG



We conducted this performance audit from August 2011 through April 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our nationwide findings and conclusions based on our audit objectives. We discussed
our observations and conclusions with management on March 5, 2012, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by review of data compared to
observations, physical inspections, and discussions with appropriate headquarters
officials. We noted several weaknesses in the computer-generated data that limited our
work. For example, some computer records were missing data and inaccurate load
volumes. Although these limitations constrained our work, we were able to compensate
by applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles to our
workhours and cost-reduction estimates.




                                                    9
Postal Vehicle Service - Nationwide Analysis                                                         NL-AR-12-005




Prior Audit Coverage

In 14 prior audits, the OIG worked with the Postal Service to reduce PVS costs at
P&DCs. As indicated in the following chart, since March 2007, we identified labor and
other potential savings of $156.4 million11 that included recommendations to reduce
247,675 unnecessary workhours and make some employee schedule conversions. All
reported savings below occurred over a 10-year period. Management agreed with all of
our recommendations.

                                                                                         Final         Monetary
                                                                      Report            Report          Impact
                         Report Title                                 Number             Date          (in millions)
     Postal Vehicle Service Transportation Routes –
                                                                     NL-AR-07-003       3/30/2007          $7.3
     Memphis Processing and Distribution Center
     Postal Vehicle Service Transportation Routes –
                                                                     NL-AR-07-007       9/27/2007          $4.0
     Milwaukee Processing and Distribution Center
     Postal Vehicle Service Transportation Routes – San
                                                                     NL-AR-08-003       3/26/2008          $10.1
     Francisco Processing and Distribution Center
     Postal Vehicle Service Transportation Routes – Northern
                                                                     NL-AR-08-006       9/25/2008          $8.0
     Virginia Processing and Distribution Center
     Postal Vehicle Service Transportation Routes –
                                                                     NL-AR-09-001       2/13/2009          $9.3
     Minneapolis Processing and Distribution Center
     Postal Vehicle Service Transportation Routes –
                                                                     NL-AR-09-006       7/20/2009          $5.4
     Philadelphia Processing and Distribution Center
     Postal Vehicle Service Transportation Routes – Cardiss
                                                                     NL-AR-10-002      12/28/2009          $18.3
     Collins Processing and Distribution Center
     Postal Vehicle Service Transportation Routes –
                                                                     NL-AR-10-006       7/14/2010          $4.8
     Southern Maryland Processing and Distribution Center
     Postal Vehicle Services - Scheduling and Staffing -                                                   $40.1
                                                                     NL-AR-10-008       9/29/2010
     Atlanta District
     Postal Vehicle Service Transportation Routes –
                                                                     NL-AR-11-001       1/13/2011          $6.5
     Suburban Maryland Processing and Distribution Center
     Postal Vehicle Services - Scheduling and Staffing –                                                   $19.9
                                                                     NL-AR-11-002       3/18/2011
     Connecticut Valley District
     Postal Vehicle Service Transportation Routes –
                                                                     NL-AR-11-004       7/25/2011          $8.2
     Baltimore Processing and Distribution Center
     Postal Vehicle Services - Scheduling and Staffing –                                                   $10.0
                                                                     NL-AR-11-005       8/12/2011
     Western Pennsylvania District
     Postal Vehicle Service Transportation Routes – Margaret
                                                                     NL-AR-12-001        2/2/2012          $4.4
     L. Sellers Processing and Distribution Center




11
  In addition to PVS savings, the total includes $4.2 million in highway contract route (HCR) savings. We excluded
these recommendations from this report, because the HCR analysis was not conducted at all reviewed facilities and
the recommendations in this report do not apply to HCRs.

                                                          10
Postal Vehicle Service - Nationwide Analysis                                                    NL-AR-12-005




                                            Appendix B: Monetary Impact

                                     Workhour and Cost Reductions12
                           Finding               Impact Category                          Amount
            The Postal Service can more         Funds Put to Better                      $53,731,992
            efficiently and effectively manage Use13
            PVS transportation processes
            and schedules, thereby reducing
            driver workhours.
            The Postal Service could use        Funds Put to Better                        40,536,794
            alternate schedules to include      Use
            split days off. This would allow
            managers to more efficiently staff
            operations and match workhours
            to workload.
                    Total                                                                $94,268,786



                                     Projected Savings by Cost Category
                                                                                                2-Year Total
                                                           FY 2012 Total         FY 2013
       Cost Category              Description                                                    FYs 2012
                                                            (Phased In)       (Annual) Total
                                                                                               through 2013
     Excess                  Eliminating 1,240,488
                                                            $13,512,016         $40,210,976     $53,731,992
     Workhours                     workhours
     Split Days Off             Eliminating 536
                                                                10,193,811       30,342,983       40,536,794
     Conversion                    positions
            Total                                           $23,705,827         $70,562,959     $94,268,786



The standard OIG practice for calculations of this type employs a 10-year cash flow
methodology, discounted to present value by applying factors published by Postal
Service Headquarters Finance. To be conservative in our cost savings estimation, we
have projected savings over 2 years, because of the Postal Services current financial
condition and its plans to restructure operations.

                    Rates by Type                                   Factor                Published
          Discount Rate/Cost of Borrowing                           2.6 %                 11/23/2011
          Labor Escalation Rate                                     1.8 %                 11/23/2011




12
     Totals slightly different due to rounding.
13
     Funds that could be used more efficiently by implementing recommended actions.

                                                           11
Postal Vehicle Service - Nationwide Analysis                                                              NL-AR-12-005




                    Appendix C: Sample Sites, Sample Sites, and Workhours

                                                     Sample Sites
                                                                                        Identified
                     Processing and                     Total Workhours                  Annual
                    Distribution Center                    in FY 2011                 Workhours for
                                                                                      Elimination14
               Baltimore P&DC                                         171,141                  43,046
               Chicago P&DC                                           382,878                  69,247
               Honolulu P&DC                                           45,736                    7,085
               Mid-Island P&DC                                        368,518                  77,778
               Norfolk P&DC                                           151,361                  22,940
               Orlando P&DC                                            84,178                    7,899
               San Francisco P&DC                                     265,256                  35,381
               Syracuse P&DC                                           43,515                    7,806
               Tampa P&DC                                             102,102                    8,952
                                             Total                  1,614,685               280,13415




14
   The annual hours eliminated in this chart were used in the statistical projection, with a 90 percent confidence level.
This resulted in a projection of 1,240,488 annual workhours that can be eliminated in the PVS sample sites.
15
   Total slightly different due to rounding.

                                                             12
Postal Vehicle Service - Nationwide Analysis                                                           NL-AR-12-005




                                                 Universe Sites16
                          Processing and Distribution                     Total Workhours
                                    Center                                   in FY 2011
                     Baltimore P&DC                                                     171,141
                     Birmingham P&DC                                                     75,315
                     Boston P&DC                                                        262,507
                     Bronx P&DC                                                         106,425
                     Brooklyn P&DC                                                      263,293
                     Buffalo P&DC                                                        59,756
                     Carol Stream P&DC                                                  124,761
                     Charlotte P&DC                                                     107,731
                     Chicago P&DC                                                       382,878
                     Cincinnati P&DC                                                    140,060
                     Cleveland P&DC                                                     142,954
                     Curseen-Morris P&DC                                                113,303
                     Dallas P&DC                                                        261,166
                     Denver P&DC                                                        166,007
                     Detroit P&DC                                                       218,720
                     Dominick V. Daniels P&DC                                           250,587
                     Fort Lauderdale P&DC                                                68,647
                     Fort Worth P&DC                                                    124,821
                     Harrisburg P&DC                                                     55,612
                     Honolulu P&DC                                                       45,736
                     Houston P&DC                                                       289,208
                     Indianapolis P&DC                                                  161,958
                     Irving Park Rd P&DC                                                150,329
                     Jacksonville P&DC                                                  139,280
                     Kansas City, Missouri P&DC                                         151,162
                     Las Vegas P&DC                                                      78,528
                     Long Beach P&DC                                                     43,041
                     Los Angeles P&DC                                                   301,303
                     Louisville P&DC                                                     76,585
                     Margaret L. Sellers P&DC                                           183,964
                     Memphis P&DC                                                       131,046
                     Miami P&DC                                                         165,564
                     Mid-Island P&DC                                                    368,518
                     Milwaukee P&DC                                                     103,198

16
  These PVS facilities and their annual hours represent the sites that we projected our savings to that accounted for
the statistical projection of 1,240,488 hours that can be eliminated.

                                                           13
Postal Vehicle Service - Nationwide Analysis                            NL-AR-12-005



                       Processing and Distribution   Total Workhours
                                 Center                 in FY 2011
                   Minneapolis P&DC                           138,042
                   Nashville P&DC                              84,638
                   New Orleans P&DC                            80,331
                   New York Morgan P&DC                       515,275
                   Norfolk P&DC                               151,361
                   Northern VA P&DC                           175,392
                   Northern NJ Metro P&DC                      51,918
                   Oakland P&DC                               227,138
                   Omaha P&DC                                  75,183
                   Orlando P&DC                                84,178
                   Philadelphia P&DC-1                        327,772
                   Phoenix P&DC                               337,771
                   Portland P&DC                              109,701
                   Providence P&DC                             68,971
                   Queens P&DC                                234,154
                   Raleigh P&DC                                65,773
                   Richmond P&DC                               97,415
                   Sacramento P&DC                            177,064
                   San Antonio P&DC                           163,823
                   San Francisco P&DC                         265,256
                   San Jose P&DC                               75,617
                   Santa Ana P&DC                              68,728
                   Seattle P&DC                               199,119
                   South Maryland P&DC                         96,481
                   South Suburban P&DC                         83,513
                   St. Louis MO P&DC                          219,279
                   St. Paul P&DC                               92,779
                   St. Petersburg P&DC                         48,988
                   Suburban MD P&DC                           125,752
                   Syracuse P&DC                               43,515
                   Tampa P&DC                                 102,102
                   West Nassau P&DC                           107,888
                                  Total                    10,180,021




                                               14
Postal Vehicle Service - Nationwide Analysis                                                NL-AR-12-005



                                  Appendix D: Consecutive and Nonconsecutive Days Off Analysis

Fewer Drivers are Needed with Nonconsecutive Days Off - Daily schedules require replacement drivers to cover
days off. The number of drivers needed on lower-volume Sundays is a small percentage of the number needed
during other days of the week. With consecutive days off, more drivers than necessary are scheduled on Sundays,
resulting in an excess amount of unassigned or stand-by time. With nonconsecutive days off, most drivers would
have lower volume Sundays off and another day off during the week. With consecutive days off, two replacement
drivers are needed for every five schedules. With nonconsecutive days off, only one replacement driver is needed for
every five schedules.
                           Consecutive Days Off Schedule – Two Replacement Drivers Needed for Every Five Daily Schedules

                    Consecutive
       Route                              Monday       Tuesday       Wednesday         Thursday       Friday       Saturday       Sunday
                     Days Off
                                                                                                                  Replacement   Replacement
        101       Saturday/Sunday              101         101             101            101           101
                                                                                                                    Driver 1      Driver 1
                                       Replacement     Replacement
        102       Monday/Tuesday                                           102            102           102           102             102
                                         Driver 1        Driver 1
                                                        Part-Time      Replacement
        103     Tuesday/Wednesday              103                                        103           103           103             103
                                                       Flex/Casual       Driver 1
                                                                                      Replacement   Replacement
        104       Thursday/Friday              104         104             104                                        104             104
                                                                                        Driver 2      Driver 2
                                                                                                     Part-Time    Replacement
        105       Friday/Saturday              105         105             105            105                                         105
                                                                                                    Flex/Casual     Driver 2

                          Nonconsecutive Days Off Schedule – One Replacement Driver Needed for Every Five Daily Schedules
                    Nonconsecutive
        Route                              Monday         Tuesday        Wednesday       Thursday     Friday       Saturday         Sunday
                       Days Off
                                                                                                                  Replacement
         101       Saturday/Sunday               101         101                101         101         101




                                                                                                                                  schedules covered by
                                                                                                                    Driver 1




                                                                                                                                   part-time flexible or
                                                                                                                                   casual employees.
                                                                                                                                    Small number of
                                         Replacement
         102        Sunday/Monday                            102                102         102         102           102
                                           Driver 1
                                                         Replacement
         103        Sunday/Tuesday               103                            103         103         103           103
                                                           Driver 1
                                                                         Replacement
         104      Sunday/Wednesday               104         104                            104         104           104
                                                                           Driver 1
                                                                                        Replacement
         105       Sunday/Thursday               105         105                105                     105           105
                                                                                          Driver 1




                                                                           15
Postal Vehicle Service - Nationwide Analysis                        NL-AR-12-005



                                Appendix E: Management’s Comments




                                               16
Postal Vehicle Service - Nationwide Analysis        NL-AR-12-005




                                               17
Postal Vehicle Service - Nationwide Analysis        NL-AR-12-005




                                               18
Postal Vehicle Service - Nationwide Analysis        NL-AR-12-005




                                               19
